No. 20-1009

 

IN THE

Supreme Court of the United States

DAVID SHINN, ET AL.,
Petitioners,
vw.

DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,
Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

AMICI CURIAE BRIEF OF BIPARTISAN FORMER DEPARTMENT
OF JUSTICE OFFICIALS AND FORMER FEDERAL
PROSECUTORS, IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,582 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 20, 2021.

 

Colin Casey Hog:
Wilson-Epes Prinfing Co., Inc.
